FDIC OIG: Website Search Results
Search
|
Accessibility
|
Privacy
|
Information Quality
|
Plain Writing Act of 2010
|
Contact Us
|
Site Map
|
Home
PUBLICATIONS
HOTLINE
RECENT UPDATES
THE IG
ORGANIZATION
GOALS
EMPLOYMENT
FOIA
.
Search Entire Web Site
Advanced Search
Record Type
Title
Date
Report No.
links
press releaseMORTGAGE COMPANY OWNER SENTENCED TO OVER 3 YEARS IN PRISON IN $1.3 MILLION FRAUD SCHEME7/30/2014press releaseHTML
evaluation reportEnforcement Actions and Professional Liability Claims Against Institution-Affiliated Parties and Individuals Associated with Failed Institutions7/25/2014Eval-14-002PDF
press releaseSpringfield Businessman Indicted For Bankruptcy Fraud In Addition To $3.3 Million Fraud Schemes7/24/2014press releaseHTML
press releaseFormer Bank Employee in Neosho County Sentenced for Embezzling More than $278,0007/14/2014press releaseHTML
evaluation reportThe FDICs Information Technology Project Management Process7/14/2014Eval-14-001PDF
press releaseMiami Jury Convicts Four Defendants Of Conspiracy And Bank Fraud Offenses Arising From $49.6 Million Mortgage Fraud Scheme7/7/2014press releaseHTML
audit reportThe FDICs Controls for Safeguarding Sensitive Information in Resolution Plans Submitted Under the Dodd-Frank Act7/3/2014AUD-14-008PDF
press releaseTwo Prince Georges County Women Each Sentenced To Over 2 Years In Prison For Mortgage Fraud Schemes6/30/2014press releaseHTML
press releaseFour Arrested for Defrauding Mortgage Lending Institutions6/25/2014press releaseHTML
press release7 Former Bank Officers Sentenced in Loan-Fraud Scheme That Preceded Collapse of First National Bank of Savannah6/25/2014press releaseHTML
press releaseSix Defendants Charged With Securities Fraud Related Violations5/22/2014press releaseHTML
press releaseFormer Owner of Sacramento Capitals Tennis Team Pleads Guilty to $50 Million Fraud Scheme5/8/2014press releaseHTML
press releaseBankers and Attorney Convicted of Fraud, False Statements, and Making a False Claim Against the United States5/8/2014press releaseHTML
press releaseWoman Guilty of Obstructing Investigation of $1.8 Million Fraud Against Failed La Jolla Bank5/1/2014press releaseHTML
press releaseMaryland Owner of Loan Brokerage Firms Indicted on Fraud Charges4/30/2014press releaseHTML
press releaseUnion City, N.J., Man Admits Operating Supposed Charity as Illegal Bank, Falsifying Taxes4/23/2014press releaseHTML
press releaseIndicted In Bank And Wire Fraud Scheme Involving Real Estate Loan From Now-Failed Sonoma Valley Bank4/10/2014press releaseHTML
press releaseBillings bank president sentenced for $413,000 bank fraud, money laundering scheme4/1/2014press releaseHTML
audit reportThe FDIC's Receivership Basic Ordering Agreements for Business Process Operations Services3/31/2014AUD-14-006PDF
audit reportThe FDIC's Purchase Card Program3/31/2014AUD-14-007PDF
audit reportThe FDIC's Actions to Address Consumer Protection Violations and Deficiencies3/28/2014AUD-14-004PDF
audit reportTransfer of Office of Thrift Supervision Functions Is Completed3/26/2014AUD-14-005PDF
press release'Real Housewives of New Jersey' Stars Plead Guilty to Conspiracy, Bankruptcy Fraud and Tax Offenses3/4/2014press release 2014HTML
audit reportThe FDIC's Data Submissions through the Governmentwide Financial Report System as of September 30, 20132/27/2014AUD-14-003PDF
press releaseLeader Of Large-Scale Identity Theft Ring Sentenced To 12 Years In Prison For His Role In Fraud Enterprise2/11/2014press releaseHTML
press releasePotomac Man Sentenced in $13 Million Mortgage Fraud Scheme2/3/2014press releaseHTML
press release7 Former Bank Officers Plead Guilty In Loan-Fraud Scheme That Preceded Collapse Of First National Bank Of Savannah1/23/2014press releaseHTML
press releaseFormer Destin Builder Sentenced to 75 Months in Prison for Fraud and Theft of his Ex-Wife's Identity1/14/2014press releaseHTML
press releaseSeven Defendants Indicted in $49.6 Million Mortgage Fraud Scheme Involving North Carolina Property Development1/10/2014press releaseHTML
press releaseMissing Georgia Bank Director, Accused Of Embezzling 12/31/2013press releaseHTML
press releaseRio Rancho Man Sentenced for Federal Bank Fraud and Money Laundering Conviction12/12/2013press releaseHTML
press releaseCharges Brought in $7.4 Million Continuing Financial Crimes Enterprise That Targeted Northern Virginia Hispanic Community11/22/2013press releaseHTML
press releaseBowie Realtor Sentenced to Over 4 Years in Prison in $2 Million Mortgage Fraud Scheme11/22/2013press releaseHTML
press releaseStars of 'Real housewives of new jersey' television series indicted on additional fraud charges11/18/2013press releaseHTML
press releaseFormer Skagit County Bank CEO Sentenced to Three Years in Prison For Falsifying Regulatory Documents11/15/2013press releaseHTML
audit reportThe FDIC's Progress in Implementing Systemic Resolution Authorities under the Dodd-Frank Act11/14/2013AUD-14-001PDF
audit reportIndependent Evaluation of the FDICs Information Security Program-201311/13/2013AUD-14-002PDF
press releaseFormer CEO of the Bank of the Commonwealth Sentenced to 23 Years In Prison For Massive Fraud11/6/2013press releaseHTML
press releaseThree Sentenced for Conspiracy, Insider Trading and Tax Evasion11/6/2013press releaseHTML
Semiannual Report to the CongressFDIC Office of Inspector General's Semiannual Report to the Congress 4/1/2013 - 9/30/20139/30/2013n/aHTML  PDF
evaluation reportThe FDICs Resolution Planning Process9/27/2013Eval-13-004PDF
audit reportStatus of the Transfer of Office of Thrift Supervision Functions9/26/2013AUD-13-008PDF
press releasePresident of Tivest Sentenced to Fifty Months in Prison for Feaud Related to the Bank of the Commonwealth9/18/2013press releaseHTML
Peer ReviewPeer Review: System Review Report on the Federal Deposit Insurance Corporation Office of Inspector General Audit Organization and Corresponding Letter of Comment9/17/2013n/aPDF
press releaseFormer Bank Of The Commonwealth Executive Sentenced To 17 Years In Prison For Massive Fraud9/16/2013press releaseHTML
audit reportThe FDIC's Controls over Business Unit-Led Application Development Activities9/11/2013AUD-13-007PDF
audit reportThe FDIC's Structured Transaction with MountainView Public Private Investment I, LLC9/6/2013AUD-13-006PDF
press releaseBowie Realtor and Leader of $5.95 Million Mortgage Fraud Scheme Sentenced to Over 3 Years in Prison8/27/2013press releaseHTML
press releaseFormer Chairman And Ceo Of Skagit County Community Bank Pleads Guilty In Connection With False Information Provided To Bank Regulators8/21/2013press releaseHTML
evaluation reportThe FDIC's Compliance with Energy Management Requirements8/19/2013Eval-13-003PDF
press releaseCoastal Community Bank Executives and Attorney Charged with Conspiracy, Wire Fraud, False Statements, and Making a False Claim Against the United States8/7/2013press releaseHTML
press releaseMadigan Announces Charges Against Premier Bank Board of Directors in $70 Million Criminal Fraud Scheme8/6/2013press releaseHTML
press releaseFormer Mortgage Broker and Bank Officer Sentenced to One Year in Prison for Conspiring to Defraud Bank in Connection with $1.48 Million Loan7/30/2013press releaseHTML
press releaseStars of Real Housewives of New Jersey Television Series Indicted on Fraud and Tax Charges7/29/2013press releaseHTML
press releaseOxon Hill Woman Pleads Guilty in Two Separate Mortgage Fraud Schemes Resulting in Losses of Over $2.5 Million7/12/2013press releaseHTML
press releaseNumerous Attorneys, Mortgage Brokers, Real Estate Professionals, and Developers Face Prison Time in Connection with Multiple Mortgage Fraud Schemes Uncovered in Eastern North Carolina7/10/2013press releaseHTML
press releaseHotel Financier Pleads Guilty to Conspiring to Bribe a Bank Loan Officer7/1/2013press releaseHTML
testimony Lessons Learned from the Financial Crisis Regarding Community Banks6/13/2013n/a
press releaseMarshall County Bank Embezzler Sentenced to Prison5/22/2013press releaseHTML
press releaseFormer Mortgage Broker and Bank Officer Admits Conspiring to Defraud Bank in Connection with $1.48 Million Loan4/11/2013press releaseHTML
press releaseFormer Officer of Closed Ellijay Bank Sentenced4/5/2013press releaseHTML
Semiannual Report to the CongressFDIC Office of Inspector General's Semiannual Report to the Congress 10/01/2012 - 3/31/20133/31/2013n/aHTML  PDF
audit reportStatus of the Transfer of Office of Thrift Supervision Functions3/27/2013AUD-13-005PDF
testimonyOverview of FDIC OIG Report: Comprehensive Study on the Impact of the Failure of Insured Depository Institutions3/21/2013n/a
press releaseSpringfield Businessman Indicted for $3.3 Million Fraud Schemes3/6/2013press releaseHTML
press releaseBowie Realtor Pleads Guilty to $2 Million Mortgage Fraud Scheme2/13/2013press releaseHTML
press releaseOfficer of now defunct new frontier bank pleads guilty to charges related to the bank's collapse2/6/2013press releaseHTML
audit reportThe FDIC's Data Submissions through the Governmentwide Financial Report System as of September 30, 20122/4/2013AUD-13-004PDF
OIG Business PlanOIG Business Plan - 20131/31/2013n/aPDF
press releaseBusiness Owner Admits Orchestrating $3 Million Bank Fraud1/31/2013press releaseHTML
evaluation reportComprehensive Study on the Impact of the Failure of Insured Depository Institutions1/3/2013Eval-13-002PDF
press releaseOfficer of Now Defunct New Frontier Bank Charged with Fraud and Money Laundering in Connection with the Bank's Collapse12/11/2012press releaseHTML
press releasePhoenix Man Sstenced to 12 Years in Federal Prison for Defrauding Seniors11/28/2012press releaseHTML
audit reportIndependent Evaluation of the FDIC's Information Security Program-201211/5/2012AUD-13-003PDF
evaluation reportAcquisition, Development and Construction Loan Concentration Study10/31/2012Eval-13-001PDF
press releaseHampton Roads Business Man Sentenced to 168 Months for Elaborate Bank and Tax Fraud10/15/2012press releaseHTML
audit reportInvoices Submitted by Lockheed Martin Services, Inc. under the FDIC's Data Management Services Contract10/11/2012AUD-13-002PDF
audit reportDRRs Controls for Managing, Marketing, and Disposing of Owned Real Estate Assets10/5/2012AUD-13-001PDF
press releaseManhattan U.S. Attorney Announces Filing of 13-Count Indictment Charging Kentucky Businessman, Senior Park Avenue Bank Official, and Financial Services Executive with Fraudulent Schemes10/1/2012press releaseHTML
audit reportStatus of the Transfer of Office of Thrift Supervision Functions9/26/2012AUD-12-015PDF
press releaseHampton Roads Developer Sentenced to 138 Months in Prison for Massive Bank and Historic Tax Credit Fraud9/26/2012press releaseHTML
press releaseFormer Bank President And Bank Customer Sentenced For Connection To Multimillion-Dollar Check-Kiting Scheme9/21/2012press releaseHTML
press releaseFormer Raleigh Real Estate Entrepreneur James T. Webb Arrested on 50-Count Indictment9/14/2012press releaseHTML
audit reportMaterial Loss Review of The First State Bank, Stockbridge, Georgia9/13/2012AUD-12-013PDF
audit reportMaterial Loss Review of Tennessee Commerce Bank, Franklin, Tennessee9/13/2012AUD-12-014PDF
audit reportThe FDICs Structured Transactions with Rialto Capital Management, LLC9/12/2012AUD-12-012PDF
audit reportThe FDIC's Examination Process for Small Community Banks8/31/2012AUD-12-011PDF
press releaseBank President Imprisoned for Embezzlement8/24/2012press releaseHTML
press releaseBank President Imprisoned for Embezzlement8/24/2012press releaseHTML
press releaseTidewater develop and Restaurateur Pleads Guilty to Massive Bank Fraud8/24/2012press releaseHTML
press releaseMadison Attorney Pleads Guilty to Bankruptcy Fraud8/15/2012press releaseHTML
press releaseLeader of $50 Million Fraud Ring Sentenced in Minnesota to 324 Months in Prison8/13/2012press releaseHTML
press releaseFormer Bank President Sentenced to Twelve Years in Federal Prison for Bank Fraud Conspiracy and Perjury8/9/2012press releaseHTML
press relesaeBelview woman pleads guilty to embezzling hundreds of thousands from Minnwest Bank8/6/2012press releaseHTML
press releaseNorthwest Arkansas Men Plead Guilty to Offenses Related to Bribery in Connection with Bank Loan7/31/2012press releaseHTML
press releaseAccountant and Real Estate Developer Sentenced to 27 Months in Prison for Orchestrating $1.5 Million Check Kiting Scheme7/13/2012press releaseHTML
press releaseExecutives, Borrowers Indicted in Massive Fraud That Led to Collapse of Bank of the Commonwealth Bank7/12/2012press releaseHTML
press releaseMissing Georgia Bank Director Indicted for Bank Fraud7/11/2012press releaseHTML
audit reportControls Related to the FDICs Contract with KeyCorp Real Estate Capital Markets, Inc.7/3/2012AUD-12-010PDF
press releaseFormer Citigroup Vice President Sentenced to 97 Months for Embezzling More than $22 Million6/29/2012press releaseHTML
press releaseFormer Top Loan Officer Of Failed Bank Convicted Of Bank Fraud And Cheating On His Taxes6/26/2012press releaseHTML
press releaseMortgage Rescue Business Owner Sentenced To 90 Months For Fraud6/25/2012press releaseHTML
press releaseFormer Chief Financial Officer At Taylor, Bean & Whitaker Sentenced To 60 Months In Prison For Fraud Scheme6/15/2012press releaseHTML
press releaseFormer Orion Bank President Is Sentenced To Six Years In Prison For Conspiracy To Commit Bank Fraud And To Deceive Bank Examiners6/12/2012press releaseHTML
press releaseTwo Charged With Multiple Counts Of Fraud 6/7/2012press releaseHTML
press releaseMember Of Large Scale Identity Theft Ring Sentenced To Two Years In Prison For Role In Fraud Enterprise5/31/2012press releaseHTML
press releaseAbacus Bank and 19 Individuals Charged in Large-Scale Mortgage Fraud Conspiracy5/31/2012press releaseHTML
press releaseFormer Covington Bank CEO Charged with Bank Fraud and False Statements5/24/2012press releaseHTML
testimonyHearing on Oversight of the FDICs Structured Transaction Program5/16/2012n/aHTML
press releaseTidewater Real Estate Project Manager Pleads Guilty to Bank Fraud Conspiracy5/14/2012press releaseHTML
press releaseChief Financial Officer Sentenced in $78 Million "Dream Home" Mortgage5/14/2012press releaseHTML
press releaseBank Of The Commonwealth Loan Officer Pleads Guilty To Bank Fraud Conspiracy5/9/2012press releaseHTML
press releaseHusband, Wife and Former Police Officer Found Guilty of Participating In Mortgage Fraud Scheme5/4/2012press releaseHTML
press releaseMortgage Broker Sentenced to Over 3 Years in Prison in Fraudulent Mortgage Rescue Scheme Resulting in Losses of Over $1.2 Million to Homeowners in Financial Distress5/1/2012press releaseHTML
press releaseHampton Roads Developer Pleads Guilty To Massive Bank And Historic Tax Credit Fraud4/20/2012press releaseHTML
press releaseBrewton Man Pleads Guilty To False Statement In Loan Application4/11/2012press releaseHTML
press releaseMortgage Rescue Business Owner Pleads Guilty To Fraud4/10/2012press releaseHTML
press releaseLeader of $66 Million Mortgage Fraud Scheme Pleads Guilty in Manhattan Federal Court4/9/2012press releaseHTML
audit reportCorus Construction Venture, LLC Structured Asset Sale4/9/2012AUD-12-009PDF
press releaseFederal Jury Convicts Bank Officer And Customer In Connection To Multimillion Dollar Check-Kiting Scheme4/6/2012press releaseHTML
Semiannual Report to the CongressFDIC Office of Inspector General's Semiannual Report to the Congress 10/01/2011 - 3/31/20123/31/2012n/aHTML  PDF
press releaseOwner and Founder of "Metro Dream Homes" Sentenced to 150 Years in Prison in $78 Million Mortgage Fraud Scheme3/30/2012press releaseHTML
audit reportThe FDICs Shared-Loss Agreements with BankUnited3/30/2012AUD-12-008PDF
evaluation reportFDIC Conference-Related Activities and Expenses3/30/2012EVAL-12-005PDF
evaluation reportThe National Owned Real Estate Management and Marketing Services Contract with CB Richard Ellis, Inc.3/23/2012EVAL-12-003PDF
evaluation reportStatus of the Transfer of Office of Thrift Supervision Functions3/21/2012EVAL-12-004HTML  PDF
press releaseFormer Chief Financial Officer of Taylor, Bean & Whitaker Pleads Guilty to Fraud Scheme3/20/2012press releaseHTML
evaluation reportEvaluation of the FDICs Monitoring of Shared-Loss Agreements3/12/2012EVAL-12-002HTML  PDF
audit reportMaterial Loss Review of Colorado Capital Bank, Castle Rock, Colorado2/17/2012AUD-12-006PDF
audit reportMaterial Loss Review of Bank of Choice, Greeley, Colorado2/17/2012AUD-12-007HTML  PDF
press releaseFormer Branch Banking and Trust Employee Sentenced to 30 Months in Prison for Making a False Bank Entry2/6/2012press releaseHTML
press releaseFormer Orion Bank President Pleads Guilty To Conspiracy To Commit Bank Fraud And Related Charge2/3/2012press releaseHTML
press releaseFormer Vice-President Of Jersey State Bank Sentenced For Bank Fraud1/31/2012press releaseHTML
press releaseFormer Sterling Banker Charged in Multiple Bank Fraud Scheme1/24/2012press releaseHTML
audit reportThe FDICs Data Submissions through the Governmentwide Financial Report System as of September 30, 20111/11/2012AUD-12-005HTML  PDF
press releaseLeader of Large Scale Identity Theft Ring and Co-Conspirator Plead Guilty, Admit Roles in Fraud Enterprise1/9/2012press releaseHTML
audit reportThe FDICs Qualification Process for Private Capital Investors Interested in Acquiring or Investing in Failed Insured Depository Institutions12/22/2011AUD-12-004HTML  PDF
press releaseOwner of Amerifirst Companies Convicted in Securities Fraud Scheme that Victimized Retired Investors12/21/2011press releaseHTML
audit reportMaterial Loss Review of Atlantic Southern Bank, Macon, Georgia12/16/2011AUD-12-003HTML  PDF
press releaseAccountant and Real Estate Developer Pleads Guilty to Orchestrating $1.5 Million Check Kiting Scheme12/7/2011press releaseHTML
press releaseBank President Sentenced to Federal Prison for 6 Years11/18/2011press releaseHTML
audit reportIndependent Evaluation of the FDICs Information Security Program201110/31/2011AUD-12-002HTML  PDF
audit reportThe FDICs Shared-Loss Agreement with Banco Popular de Puerto Rico, San Juan, Puerto Rico10/25/2011AUD-12-001HTML  PDF
press releaseFormer United Commercial Bank Officials Charged with Securities Fraud10/11/2011press releaseHTML
press releaseMortgage Broker and Loan Officer Plead Guilty in Fraudulent Mortgage Rescue Scheme Resulting in Losses of Over $1.2 Million to Homeowners in Financial Distress10/7/2011press releaseHTML
MLRThe FDIC's Acquisition and Management of Securities Obtained through Resolution and Receivership Activities10/6/2011EVAL-12-001HTML  PDF
press releaseSix Indicted in $25 Million Mortgage Fraud Scheme10/5/2011press releaseHTML
press releaseTax Preparer Indicted for $3.4 Million Mortgage Fraud Scheme9/30/2011press releaseHTML
evaluation reportEvaluation of Prompt Regulatory Action Implementation9/30/2011EVAL-11-006PDF
press releaseTwenty South Florida Residents Charged in $40 Million Bank and Mortgage Fraud Scheme9/29/2011press releaseHTML
evaluation reportStatus of the Transfer of Office of Thrift Supervision Functions9/28/2011EVAL-11-005PDF
audit reportThe FDIC's Privacy Program20119/23/2011AUD-11-014PDF
MLRMaterial Loss Review of FirsTier Bank, Louisville, Colorado8/24/2011AUD-11-013PDF
press releaseReal Estate Agent Indicted in $50 Million Mortgage Fraud Scheme8/19/2011press releaseHTML
press releaseSavannah Real Estate Developer Sentenced to Over 4 Years in Prison for Conspiring to Defraud First National Bank and Others8/16/2011press releaseHTML
MLRMaterial Loss Review of Peninsula Bank, Englewood, Florida7/21/2011AUD-11-012PDF
evaluation reportAudit of OneWest Banks Loan Modification Program7/18/2011EVAL-11-004PDF
IRIn-Depth Review of the Failure of USA Bank, Port Chester, New York7/11/2011AUD-11-011PDF
press releaseFormer Chairman of Taylor, Bean & Whitaker Sentenced to 30 Years in Prison and Ordered to Forfeit $38.5 Million6/30/2011press releaseHTML
press releaseTwo Conspirators Sentenced to Prison in $78 Million Dream Home Mortgage Fraud Scheme6/27/2011press releaseHTML
press releaseFormer Bank Lawyer Indicted in Multi-Million Dollar Fraud and Money Laundering Conspiracies6/24/2011press releaseHTML
IRIn-Depth Review of the Failure of Washington First International Bank, Seattle, Washington6/20/2011AUD-11-010PDF
evaluation reportEvaluation of the FDICs Economic Analysis of Three Rulemakings to Implement Provisions of the Dodd-Frank Act6/13/2011EVAL-11-003HTML  PDF
press releaseFormer Treasurer and President of Taylor, Bean & Whitaker Each Sentenced to Prison for Fraud Scheme6/10/2011press releaseHTML
MLRMaterial Loss Review of Premier Bank, Jefferson City, Missouri5/12/2011AUD-11-007PDF
MLRMaterial Loss Review of Hillcrest Bank, Overland Park, Kansas5/12/2011AUD-11-008PDF
IRIn-Depth Review of the Failure of The Gordon Bank, Gordon, Georgia5/11/2011AUD-11-006PDF
press releaseDelroy Davy Sentenced to 14 Years in Prison for Defrauding Failed Omni National Bank and Other Lenders4/22/2011press releaseHTML
press releaseFormer Executive of Failed Omni National Bank Sentenced to Federal Prison4/22/2011press releaseHTML
press releaseFormer Chairman of Taylor, Bean & Whitaker Convicted for $2.9 Billion Fraud Scheme that Contributed to the Failure of Colonial Bank4/19/2011press releaseHTML
press releaseFormer TBW CEO Pleads Guilty to $1.5 Billion Fraud Scheme4/1/2011press releaseHTML
Semiannual Report to the CongressFDIC Office of Inspector General's Semiannual Report to the Congress 10/01/2010 - 3/31/20113/31/2011n/aHTML  PDF
evaluation reportReview of the Joint Implementation Plan for the Transfer of Office of Thrift Supervision Functions3/28/2011EVAL-11-002PDF
press releaseFormer Bank President and Senior Loan Officer Indicted in Multi-Million Dollar Fraud Conspiracy3/21/2011press releaseHTML
press releaseFormer President of TBW Pleads Guilty to Fraud Scheme3/14/2011press releaseHTML
evaluation reportRecapitalization and Resolution Efforts Associated with ShoreBank, Chicago, Illinois3/8/2011EVAL-11-001HTML  PDF
press releaseMadison Resident Sentenced to Seven Years and Eleven Months in Federal Prison for Mortgage Fraud3/4/2011press releaseHTML
audit reportThe FDICs Franchise Marketing of AmTrust Bank3/3/2011AUD-11-005HTML  PDF
press releaseFormer Senior Vice President of Colonial Bank Pleads Guilty to Fraud Scheme3/2/2011press releaseHTML
press release14 Defendants Charged in Large-Scale Mortgage Fraud Conspiracy Involved Over $47 Million in Loans and 22 Residential Properties in Sarasota, FL2/25/2011press releaseHTML
MLRMaterial Loss Review of ShoreBank, Chicago, Illinois2/25/2011MLR-11-012PDF
press releaseFour Charged in Multi-Million Dollar Mortgage Fraud Scheme2/24/2011press releaseHTML
press releaseFormer Treasurer of Taylor, Bean & Whitaker Pleads Guilty to $1.9 Billion Fraud Scheme that Contributed to the Failure of Colonial Bank2/24/2011press releaseHTML
press releaseThree Conspirators Convicted in $78 Million Mortgage Fraud Scheme2/18/2011press releaseHTML
IRIn-Depth Review of the Failure of First Lowndes Bank, Fort Deposit, Alabama2/14/2011IDR-11-006PDF
MLRMaterial Loss Review of Crescent Bank and Trust Company, Jasper, Georgia1/28/2011MLR-11-011PDF
IRIn-Depth Review of the Failure of The Park Avenue Bank, New York, New York1/23/2011IDR-11-004PDF
IRIn-Depth Review of the Failure of Wheatland Bank, Naperville, Illinois1/21/2011IDR-11-005PDF
MLRFollow-up Audit of FDIC Supervision Program Enhancements12/23/2010MLR-11-010PDF
audit reportVerification of the FDIC's Data Submissions through the Governmentwide Financial Report System as of September 30, 201012/14/2010AUD-11-003PDF
MLRMaterial Loss Review of CF Bancorp, Port Huron, Michigan12/2/2010MLR-11-005PDF
MLRMaterial Loss Review of Frontier Bank, Everett, Washington12/2/2010MLR-11-006PDF
MLRMaterial Loss Review of Westernbank Puerto Rico, Mayaguez, Puerto Rico12/2/2010MLR-11-007PDF
MLRMaterial Loss Review of Eurobank, San Juan, Puerto Rico12/2/2010MLR-11-008PDF
MLRMaterial Loss Review of R-G Premier Bank of Puerto Rico, Hato Rey, Puerto Rico12/2/2010MLR-11-009PDF
press releaseCo-Conspirators Sentenced in $213 Million Ponzi Scheme12/2/2010press releaseHTML
IRIn-Depth Review of the Failure of Centennial Bank, Ogden, Utah11/23/2010IDR-11-003HTML  PDF
audit reportIndependent Evaluation of the FDICs Information Security Program-201011/15/2010AUD-11-001PDF
MLRMaterial Loss Review of City Bank, Lynnwood, Washington11/12/2010MLR-11-003PDF
MLRMaterial Loss Review of Broadway Bank, Chicago, Illinois11/12/2010MLR-11-004PDF
press releaseJohnson County Men Indicted on Bank Fraud Charges11/10/2010press releaseHTML
MLRIn-Depth Review of the Failure of the Bank of Hiawassee, Hiawassee, Georgia11/2/2010IDR-11-002HTML  PDF
press releaseLeader of $92 Million Mortgage Fraud Conspiracy Pleads Guilty10/15/2010press releaseHTML
MLRIn-Depth Review of the Failure of George Washington Savings Bank, Orland Park, Illinois10/14/2010IDR-11-001HTML  PDF
press releaseFormer President of the Park Avenue Bank Pleads Guilty in Manhattan Federal Court to Fraud on the TARP, Securities Fraud, Self-Dealing, Bank Bribery, and Embezzlement of Bank Funds10/8/2010press releaseHTML
MLRMaterial Loss Review of Appalachian Community Bank, Ellijay, Georgia10/1/2010MLR-11-001PDF
MLRMaterial Loss Review of Advanta Bank Corp., Draper, Utah10/1/2010MLR-11-002HTML  PDF
Semiannual Report to the CongressFDIC Office of Inspector General's Semiannual Report to the Congress 4/01/2010 - 9/30/20109/30/2010n/aHTML  PDF
audit reportThe FDIC's Proforma Process for Corus Bank, N.A.9/23/2010AUD-10-007PDF
Peer Review ReportPeer Review: System Review Report on the Federal Deposit Insurance Corporation Office of Inspector General Audit Organization and Corresponding Letter of Comment9/21/2010n/aPDF
press releaseBobby W. Ferguson Indicted for Fraud, Money Laundering, Obstruction of Justice and Conspiracy to Defraud the United States9/8/2010press releaseHTML
MLRMaterial Loss Review of First Regional Bank, Los Angeles, California9/1/2010MLR-10-047HTML  PDF
In-Depth ReviewIn-Depth Review of the Failure of Columbia River Bank, The Dalles, Oregon9/1/2010IDR-10-002PDF
MLRMaterial Loss Review of Community Bank & Trust, Cornelia, Georgia9/1/2010MLR-10-046HTML  PDF
MLRMaterial Loss Review of Florida Community Bank, Immokalee, Florida8/30/2010MLR-10-044HTML  PDF
MLRMaterial Loss Review of Horizon Bank, Bellingham, Washington8/30/2010MLR-10-045HTML  PDF
In-Depth ReviewIn-Depth Review of the Failure of EvergreenBank, Seattle, Washington8/24/2010IDR-10-001PDF
evaluation reportEvaluation of the Timeliness and Factors Considered in Closing Broadway Bank, Chicago, Illinois8/5/2010EV-10-004HTML  PDF
MLRMaterial Loss Review of RockBridge Commercial Bank, Atlanta, Georgia7/20/2010MLR-10-041HTML  PDF
MLRMaterial Loss Review of Citizens State Bank, New Baltimore, Michigan7/20/2010MLR-10-042HTML  PDF
MLRMaterial Loss Review of United Commercial Bank, San Francisco, California7/20/2010MLR-10-043HTML  PDF
MLRMaterial Loss Review of Imperial Capital Bank, La Jolla, California7/19/2010MLR-10-040HTML  PDF
press releaseFormer FDIC Employee Fined for Leaking Financial Data6/30/2010press releaseHTML
press releaseFormer Chairman of Taylor, Bean & Whitaker Indicted for His Role in a More Than $1.9 Billion Fraud Scheme That Contributed to the Failure of Colonial Bank6/16/2010press releaseHTML
MLRMaterial Loss Review of Benchmark Bank, Aurora, Illinois6/15/2010MLR-10-038HTML  PDF
MLRMaterial Loss Review of The Buckhead Community Bank, Atlanta, Georgia6/15/2010MLR-10-039HTML  PDF
MLRMaterial Loss Review of Prosperan Bank, Oakdale, Minnesota6/2/2010MLR-10-037HTML  PDF
press releaseOhio Man Sentenced for Making False Statements on Loan Application5/21/2010press releaseHTML
MLRMaterial Loss Review of North Houston Bank, Houston, Texas, and Madisonville State Bank, Madisonville, Texas5/20/2010MLR-10-036HTML  PDF
MLRMaterial Loss Review of United Security Bank, Sparta,Georgia5/20/2010MLR-10-035HTML  PDF
press releaseFormer Bank Vice President Sentenced to Prison for Hiding Facts in Bank Audit5/14/2010press releaseHTML
press releaseFormer Nashville Resident Sentenced to 51 Months in Prison for $2.7 Million Bank Fraud5/11/2010press releaseHTML
testimonyHearing on the Role of Inspectors General: Minimizing and Mitigating Waste, Fraud and Abuse5/9/2010n/aHTML
press releaseTwo Former Bank Executives and Hotel Developer Charged with Frauds Relating to the collapse of $1 Billion Atlanta Bank5/7/2010press releaseHTML
MLRMaterial Loss Review of American United Bank, Lawrenceville, Georgia5/6/2010MLR-10-034HTML  PDF
MLRMaterial Loss Review of Hillcrest Bank Florida, Naples, Florida5/6/2010MLR-10-033HTML  PDF
MLRMaterial Loss Review of First DuPage Bank, Westmont, Illinois5/3/2010MLR-10-032HTML  PDF
MLRMaterial Loss Review of Colonial Bank, Montgomery, Alabama4/23/2010MLR-10-031HTML  PDF
press releaseOregon, Illinois Woman Charged with Embezzling More Than $32,000 from Former Rock River Bank4/20/2010press releaseHTML
press releaseTwo Men Indicted in Alleged $56 Million Bank Fraud Involving Two Residential Developments in Downtown Loop4/19/2010press releaseHTML
testimonyHearing on the Role of Regulators in Exercising Their Supervision of Washington Mutual Bank from 2004 - 20084/16/2010n/aHTML
press releaseMission Attorney Indicted for Fraud and Theft of an Employee Benefit Plan4/16/2010press releaseHTML
press releaseFederal Jury Convicts Amerifirst Executive in Securities Fraud Scheme that Targeted Senior Citizens4/14/2010press releaseHTML
MLRMaterial Loss Review of Venture Bank, Lacey, Washington4/9/2010MLR-10-029HTML  PDF
MLRMaterial Loss Review of Georgian Bank, Atlanta, Georgia4/9/2010MLR-10-030HTML  PDF
evaluation reportEvaluation of Federal Regulatory Oversight of Washington Mutual Bank4/9/2010EV-10-002HTML  PDF
evaluation reportEvaluation of Allegations Pertaining to the Chairmans Mortgage Loans with Bank of America4/9/2010EV-10-003HTML  PDF
press releaseFormer FDIC Employee Admits Leaking Financial Data4/2/2010press releaseHTML
press releaseEast Point Man Sentenced in Mortgage & Bankruptcy Fraud Related to Loans Funded by Failed Bank4/1/2010press releaseHTML
Semiannual Report to the CongressFDIC Office of Inspector General's Semiannual Report to the Congress 10/01/2008 - 3/31/20103/31/2010n/aHTML  PDF
press releasePamrapo Savings Bank of New Jersey Pleads Guilty to Conspiracy to Commit Bank Secrecy Act Violations and Forfeits $5 Million3/29/2010press releaseHTML
press releaseLargo Man Charged in $53 Million Ponzi-Type Fraud Scheme3/26/2010press releaseHTML
MLRMaterial Loss Review of Affinity Bank, Ventura, California3/25/2010MLR-10-025HTML  PDF
MLRMaterial Loss Review of Mainstreet Bank, Forest Lake, Minnesota3/25/2010MLR-10-026HTML  PDF
MLRMaterial Loss Review of First State Bank, Flagstaff, Arizona3/25/2010MLR-10-027HTML  PDF
MLRMaterial Loss Review of InBank, Oak Forest, Ilinois3/25/2010MLR-10-028HTML  PDF
press releaseManhattan U.S. Attorney Charges Former President of The Park Avenue Bank with Self-Dealing, Bank Bribery, Embezzlement of Bank Funds, and Fraud3/15/2010press releaseHTML
press releaseTwo Former Wildwood Industries Employees, Accountant Enter Guilty Pleas in Fraud Conspiracy3/11/2010press releaseHTML
MLRMaterial Loss Review of First State Bank, Sarasota, Florida3/10/2010MLR-10-024HTML  PDF
MLRMaterial Loss Review of First Coweta Bank, Newnan, Georgia3/10/2010MLR-10-023HTML  PDF
MLRMaterial Loss Review of Mutual Bank, Harvey, Illinois2/26/2010MLR-10-021HTML  PDF
MLRMaterial Loss Review of Integrity Bank, Jupiter, Florida2/26/2010MLR-10-022HTML  PDF
MLRMaterial Loss Review of First Piedmont Bank, Winder, Georgia2/12/2010MLR-10-017HTML  PDF
MLRMaterial Loss Review of Temecula Valley Bank, Temecula, California2/12/2010MLR-10-018HTML  PDF
MLRMaterial Loss Review of Founders Bank, Worth, Illinois and Rock River Bank, Oregon, Illinois2/12/2010MLR-10-019HTML  PDF
MLRMaterial Loss Review of the Six Bank Subsidiaries of Security Bank Corporation, Macon, Georgia2/12/2010MLR-10-020HTML  PDF
evaluation reportThe FDICs Loan Modification Program2/4/2010EV-10-001HTML  PDF
MLRMaterial Loss Review of Millennium State Bank of Texas, Dallas, Texas1/22/2010MLR-10-016HTML  PDF
MLRMaterial Loss Review of Mirae Bank, Los Angeles, California1/21/2010MLR-10-015HTML  PDF
MLRMaterial Loss Review of the Bank of Wyoming, Thermopolis, Wyoming1/21/2010MLR-10-014HTML  PDF
audit reportVerification of the FDICs Data Submissions through the Governmentwide Financial Report System as of September 30, 20091/6/2010AUD-10-003PDF
MLRMaterial Loss Review of MetroPacific Bank, Irvine, California1/6/2010MLR-10-011HTML  PDF
MLRMaterial Loss Review of Southern Community Bank, Fayetteville, Georgia1/6/2010MLR-10-012HTML  PDF
MLRMaterial Loss Review of Cooperative Bank, Wilmington, North Carolina1/6/2010MLR-10-013HTML  PDF
audit reportInformation Technology Security Controls over FDICconnect12/17/2009AUD-10-002PDF
MLRMaterial Loss Review of Bank of Lincolnwood, Lincolnwood, Illinois12/16/2009MLR-10-010HTML  PDF
MLRMaterial Loss Review of Strategic Capital Bank, Champaign, Illinois12/4/2009MLR-10-007HTML  PDF
MLRMaterial Loss Review of Great Basin Bank of Nevada, Elko, Nevada12/4/2009MLR-10-008HTML  PDF
MLRMaterial Loss Review of America West Bank, Layton, Utah12/4/2009MLR-10-009HTML  PDF
MLRMaterial Loss Review of Westsound Bank, Bremerton, Washington12/2/2009MLR-10-005PDF
MLRMaterial Loss Review of American Southern Bank, Kennesaw, Georgia12/2/2009MLR-10-006HTML  PDF
audit reportIndependent Evaluation of the FDICs Information Security Program - 200911/30/2009AUD-10-001PDF
MLRMaterial Loss Review of First Bank of Beverly Hills, Calabasas, California11/5/2009MLR-10-004HTML  PDF
MLRMaterial Loss Review of Cape Fear Bank, Wilmington, North Carolina10/23/2009MLR-10-002HTML  PDF
MLRMaterial Loss Review of New Frontier Bank, Greeley, Colorado10/23/2009MLR-10-003HTML  PDF
MLRMaterial Loss Review of FirstCity Bank, Stockbridge, Georgia10/1/2009MLR-10-001HTML  PDF
evaluation reportControls over Contracts Related to Resolution and Receivership Activities9/30/200909-008EVPDF
Semiannual Report to the CongressFDIC Office of Inspector General's Semiannual Report to the Congress 4/1/2009 - 9/30/20099/30/2009n/aHTML  PDF
audit reportMaterial Loss Review of Heritage Community Bank, Glenwood, Illinois9/18/200909-027HTML  PDF
audit reportMaterial Loss Review of Freedom Bank of Georgia, Commerce, Georgia9/18/200909-028HTML  PDF
audit reportMaterial Loss Review of Security Savings Bank, Henderson, Nevada9/18/200909-029HTML  PDF
audit reportMaterial Loss Review of Corn Belt Bank and Trust Company, Pittsfield, Illinois9/4/200909-025HTML  PDF
audit reportMaterial Loss Review of Sherman County Bank, Loup City, Nebraska9/4/200909-026HTML  PDF
audit reportMaterial Loss Review of FirstBank Financial Services, McDonough, Georgia9/3/200909-024HTML  PDF
audit reportMaterial Loss Review of Alliance Bank, Culver City, California9/1/200909-022HTML  PDF
audit reportMaterial Loss Review of Silver Falls Bank, Silverton, Oregon9/1/200909-023HTML  PDF
evaluation reportEvaluation of the FDICs Solicitation and Award of the National Owned Real Estate Management and Marketing Services Receivership Basic Ordering Agreement9/1/200909-007EVPDF
evaluation reportThe FDICs Role in the Monitoring of IndyMac Bank8/27/200909-006EVHTML  PDF
audit reportMaterial Loss Review of MagnetBank, Salt Lake City, Utah8/24/200909-021HTML  PDF
audit reportAudit of Information Technology Controls in Support of the FDIC Funds 2008 and 2007 Financial Statements Audit8/13/200909-020PDF
audit reportMaterial Loss Review of 1st Centennial Bank, Redlands, California8/11/200909-019HTML  PDF
audit reportMaterial Loss Review of Haven Trust Bank, Duluth, Georgia8/5/200909-017HTML  PDF
audit reportMaterial Loss Review of the Bank of Clark County, Vancouver, Washington8/4/200909-018HTML  PDF
audit reportMaterial Loss Review of The Community Bank, Loganville, Georgia8/3/200909-016HTML  PDF
audit reportMaterial Loss Review of Franklin Bank, S.S.B., Houston, Texas7/2/200909-014HTML  PDF
audit reportFDICs Brokered Deposit Waiver Application Process6/5/200909-015HTML  PDF
press releaseMan Sentenced to Nearly Four Years in Federal Prison for Sending Threatening White Powder-laced Hoax Letters6/4/2009press releaseHTML
audit reportMaterial Loss Review of Security Pacific Bank, Los Angeles, California5/18/200909-012HTML  PDF
audit reportFDICs Corporate Investment Program5/14/200909-013HTML  PDF
audit reportMaterial Loss Review of Freedom Bank, Bradenton, Florida5/8/200909-011HTML  PDF
audit reportMaterial Loss Review of Alpha Bank and Trust, Alpharetta, Georgia5/1/200909-010HTML  PDF
evaluation reportMaterial Loss Review of Main Street Bank, Northville Michigan4/15/200909-005EVHTML  PDF
evaluation reportEnergy Efficiency of the FDICs Virginia Square Facility and Information Technology Data Center4/15/200908-005EVHTML  PDF
audit reportOversight Management of the Contract with the ARAMARK Corporation3/31/200909-009HTML  PDF
Semiannual Report to the CongressFDIC Office of Inspector General's Semiannual Report to the Congress 10/01/2008 - 3/31/20093/31/2009n/aHTML  PDF
audit reportMaterial Loss Review of Silver State Bank, Henderson, Nevada3/30/200909-008HTML  PDF
press releaseMcComb (MS) Lawyer Disbarred for Fraud3/27/2009press releaseHTML
audit reportControl Improvements Undertaken by the Division of Information Technology to Ensure the Confidentiality of Sensitive Email Communications3/26/200909-007PDF
evaluation reportControls Over the FDICs Processing of Capital Purchase Program Applications from FDIC-Supervised Institutions3/20/200909-004EVHTML  PDF
audit reportMaterial Loss Review of Integrity Bank Alpharetta, Georgia3/17/200909-006HTML  PDF
audit reportMaterial Loss Review of The Columbian Bank and Trust Company, Topeka, Kansas3/11/200909-005HTML  PDF
audit reportFDICs Controls Related to the Offsite Review List2/19/200909-004HTML  PDF
audit reportMaterial Loss Review of First Priority Bank, Bradenton, Florida2/18/200909-003HTML  PDF
evaluation reportThe FDICs Guard Services Contract and Controls Over Access to Facilities2/6/200909-002EVHTML  PDF
audit reportExamination Coverage of Underwriting Practices for Consumer Loans Not Secured by Real Estate2/6/200909-002HTML  PDF
evaluation reportThe FDICs Corporate Employee Program1/9/200909-001EVHTML  PDF
audit reportVerification of the FDICs Data Submissions through the Governmentwide Financial Report System as of September 30, 200812/17/200809-001HTML  PDF
Semiannual Report to the CongressFDIC Office of Inspector General's Semiannual Report to the Congress 4/1/2008 - 9/30/20089/30/2008n/aHTML  PDF
audit reportReliability of Supervisory Information Accessed Through the Virtual Supervisory Information on the Net (ViSION) System9/25/200808-019HTML  PDF
audit reportIndependent Evaluation of the FDICs
Information Security Program-20089/25/200808-020HTML  PDF
audit reportFDICs Receivership Service Billing Process9/23/200808-018HTML  PDF
audit reportFDICs Controls Over Contractor Invoice Approval, Payment, and Posting to the General Ledger9/22/200808-017HTML  PDF
audit reportControls Over Contractor Payments for Relocation Services9/17/200808-016HTML  PDF
audit reportProtection of Resolution and Receivership Data Managed or Maintained by an FDIC Contractor9/3/200808-015HTML  PDF
audit reportFDICs Controls Over the CAMELS Rating Review Process8/12/200808-014HTML  PDF
audit reportControls for Protecting the Confidentiality of Sensitive Email Communications8/1/200808-013HTML  PDF
audit reportFDICs Examination of Liquidity Risk7/30/200808-012HTML  PDF
audit reportDSCs Examination Assessment of Interest Rate Risk7/7/200808-011HTML  PDF
audit reportControls Over Background Checks of Child Care Provider Personnel7/1/200808-010HTML  PDF
press releaseMore Than 400 Defendants Charged for Roles in Mortgage Fraud Schemes as Part of Operation Malicious Mortgage6/19/2008press releaseHTML
press releaseMortgage Fraud Prosecutions and Additional Resources Buttress On-Going Mortgage Fraud Crackdown6/19/2008press releaseHTML
audit reportImplementation of FDICs Supervisory Guidance for Nontraditional Mortgage Products3/31/200808-009HTML  PDF
Semiannual Report to the CongressFDIC Office of Inspector General's Semiannual Report to the Congress 10/01/2007 - 3/31/20083/31/2008n/aHTML  PDF
audit reportFDIC's Contract Oversight Management of the Infrastructure Services Contract3/27/200808-008HTML  PDF
audit reportFDICs Receipt and Assessment of Savings Association Subsidiary Notices3/18/200808-007HTML  PDF
audit reportFDICs Replacement and Disposal Process for Laptop Computers3/12/200808-006HTML  PDF
press releaseDecatur Man Sentenced to 19 ½ Years in Prison for Real Estate Flipping Scheme3/5/2008press releaseHTML
press releaseFormer Bank Vice President Sentenced ofr $569,115 Embezzlement and Money Laundering2/13/2008press releaseHTML
audit reportFDICs Consideration of Commercial Real Estate Concentration Risk in FDIC-Supervised Institutions2/7/200808-005HTML  PDF
audit reportVerification of the FDICs Data Submissions through the Governmentwide Financial Report System as of September 30, 20071/28/200808-004HTML  PDF
press releaseThirteen People Indicted, Seven More Plead Guilty, in $20 Million Home Equity Loan Scheme1/18/2008press releaseHTML
evaluation reportEvaluation of Contract Rationalization1/3/200808-003EVHTML  PDF
evaluation reportThe FDICs Transit Subsidy Program1/2/200808-004EVHTML  PDF
evaluation reportThe FDICs Telework Program12/6/200708-002EVHTML  PDF
evaluation reportThe FDICs Internal Risk Management Program11/30/200708-001EVHTML  PDF
audit reportExamination Procedures Related to the Protection of Customer and Consumer Information at Multi-regional Data Processing Servicers (MDPS)11/30/200708-002HTML  PDF
audit reportThe FDICs Implementation of the USA PATRIOT Act11/30/200708-003HTML  PDF
Peer Review ReportReport on the External Quality Control Review of the Federal Deposit Insurance Corporations Inspector General Audit Organization11/1/2007n/aHTML  PDF
press releaseSecurities Sales Rep Pleads Guilty to Role in Dallas-Based Amerifirst Securities Fraud10/19/2007press releaseHTML
press releaseDallas Real Estate Investor Sentenced to More Than 11 Years in Federal Prison, Without Parole, in Mortgage Fraud Scheme10/19/2007press releaseHTML
audit reportThe FDICs IT Disaster Recovery Capability10/15/200708-001HTML  PDF
Semiannual Report to the CongressFDIC Office of Inspector General's Semiannual Report to the Congress 4/1/2007 - 9/30/20079/30/2007n/aHTML  PDF
audit reportIndependent Evaluation of the FDICs Information Security Program-20079/27/200707-014HTML  PDF
audit reportDSC's Examination Assessment of Financial Institutions' Compliance Management Systems9/26/200707-015HTML  PDF
audit reportResponse to Privacy Program Information Request in OMBs Fiscal Year 2007 Reporting Instructions for FISMA and Agency Privacy Management9/26/200707-013HTML  PDF
audit reportFDICs Participation in the Shared National Credit Program9/13/200707-012HTML  PDF
audit reportFDICs Dedicated Examiner Program for Large Insured Depository Institutions9/13/200707-011HTML  PDF
audit reportDivision of Resolutions and Receiverships Protection of Electronic Records9/4/200707-010HTML  PDF
press releaseFormer President of Canton State Bank and His Wife Are Sentenced on Multiple Federal Charges Involving Fraudulantly Obtained Loans8/30/2007press releaseHTML
press releaseFormer Wall Street Executive Sentenced to 24 Months In Prison; Pays $11 Million in Restitution8/3/2007press releaseHTML
press releaseSeattle Man Pleads Guilty to Falsifying Bank Records5/22/2007press releaseHTML
press releaseFormer Wall Street Executive Admits $12 Million Bank Securities Fraud Conspiracy5/17/2007press releaseHTML
press releaseJury Finds Owner of Stardancer Casinos Guilty on 28 Counts of Fraud5/16/2007press releaseHTML
evaluation reportEvaluation of the FDICs Use of Performance Measures5/2/200707-002EVHTML  PDF
Semiannual Report to the CongressFDIC Office of Inspector General's Semiannual Report to the Congress 10/01/2006 - 3/31/20073/31/2007n/aHTML  PDF
audit reportExamination Assessment of the Reliability of Appraisals and Sufficiency of Insurance Coverage for Real Estate Lending3/30/200707-007HTML  PDF
audit reportFDICs Implementation of the 2005 Amendments to the Community Reinvestment Act Regulations3/30/200707-008HTML  PDF
audit reportFDICs Contract Planning and Management for Business Continuity3/30/200707-009HTML  PDF
evaluation reportEvaluation of the FDICs Succession Planning Efforts3/28/200707-001EVHTML  PDF
press releaseFederal Jury Convicts Real Estate Investor in Mortgage Fraud Scheme3/20/2007press releaseHTML
press releaseIndividuals Found Guilty of Conspiracy and Fraud Related to Boulder Based BestBank Failure2/12/2007press releaseHTML
audit reportInformation Technology Examination Coverage of Financial Institutions Oversight of Technology Service Providers2/5/200707-005HTML  PDF
audit reportInteragency Agreement With the General Services Administration for the Infrastructure Services Contract1/10/200707-004HTML  PDF
audit reportThe FDIC's Compliance with Section 522 of the Consolidated Appropriations Act, 20051/10/200707-003HTML  PDF
audit reportThe Division of Supervision and Consumer Protection's Information Technology-Risk Management Program1/10/200707-002HTML  PDF
press releaseFormer Bank Vice President Sentenced for Fraud12/28/2006press releaseHTML
audit reportFDIC's Supervision of Financial Institutions' OFAC Compliance Programs12/14/200607-001HTML  PDF
press releaseNewnan Mortgage Broker and Its Principal Indicted for Bank Fraud10/10/2006press releaseHTML
Semiannual Report to the CongressFDIC Office of Inspector General's Semiannual Report to the Congress 4/1/2006 - 9/30/20069/30/2006n/aHTML  PDF
evaluation reportFDICs Contract Administration9/29/200606-026HTML  PDF
audit reportDivision of Supervision and Consumer Protections Supervisory Actions Taken for Compliance Violations9/29/200606-024HTML  PDF
audit reportExaminer Use of Home Mortgage Disclosure Act Data to Identify Potential Discrimination9/28/200606-023HTML  PDF
audit reportIndependent Evaluation of the FDICs Information Security Program-20069/27/200606-022HTML  PDF
audit reportResponse to Privacy Program Information Request in OMBs Fiscal Year 2006 Reporting Instructions for FISMA and Agency Privacy Management9/22/200606-018HTML  PDF
audit reportResponses to Security-Related Questions in OMBs Fiscal Year 2006 Reporting Instructions for FISMA and Agency Privacy Management9/22/200606-019HTML  PDF
evaluation reportFDICs Emergency Response Plans9/22/200606-021HTML  PDF
audit reportDRRs Protection of Bank Employee and Customer Personally Identifiable Information9/15/200606-017HTML  PDF
press releaseFormer Cokato Bank Executive Pleads Guilty to Lying to a Federal Agent8/17/2006press releaseHTML
audit reportControls Over the Disposal of Sensitive FDIC Information by Iron Mountain, Inc.8/10/200606-016HTML  PDF
press releaseFormer Bank President Sentenced for Fraud That Resulted in Bank Failure7/21/2006press releaseHTML
evaluation reportThe FDICs Industrial Loan Company Deposit Insurance Application Process7/20/200606-014HTML  PDF
audit reportFDICs Oversight of Technology Service Providers7/20/200606-015HTML  PDF
press releaseFormer Rural Bank Executives Charged with Bank Fraud and Lying to FBI7/19/2006press releaseHTML
press releaseFormer President of Canton State Bank and his Wife are Indicted on Multiple Federal Fraud Charges Involving a Bank Fraud Conspiracy6/8/2006press releaseHTML  PDF
audit reportChallenges and FDIC Efforts Related to Predatory Lending6/7/200606-011HTML  PDF
testimonyOffice of Inspector General Fiscal Year 2007 Appropriation Request for the Subcommittee on Transportation, Treasury, the Judiciary, HUD and Related Agencies; Senate Committee on Appropriations; May 24, 20065/24/2006n/aHTML
press releaseFormer Bank Director Convicted of Misapplication of Bank Funds5/9/2006press releaseHTML
press releaseFormer President of the First National Bank Pleads Guilty to Bank Fraud5/1/2006press releaseHTML
audit reportFDIC Reserve Ratio and Assessment Determinations4/17/200606-013HTML  PDF
audit reportSecurity Controls Over the FDICs Wireless Data Communications3/31/200606-012HTML  PDF
Semiannual Report to the CongressFDIC Office of Inspector General's Semiannual Report to the Congress 10/01/2005 - 3/31/20063/31/2006n/aHTML  PDF
audit reportFDICs Consolidated Facilities Management Approach3/30/200606-010HTML  PDF
press releaseFormer FDIC Intern Sentenced to 60 Months Imprisonment3/24/2006press releaseHTML
press releaseDirector and President of Bank of Alamo Indicted Along With Four Others on Money Laundering and Bank Fraud Charges3/22/2006press releaseHTML
press releaseFormer State of Minnesota Representative Sentenced for Fraud3/20/2006press releaseHTML
FDIC Management and Performance ChallengesOIGs Assessment of the Management and Performance Challenges Facing the FDIC3/15/2006n/aHTML  PDF
audit reportFDICs Guidance to Institutions and Examiners for Implementing the Gramm-Leach-Bliley Act Title V and the Fair and Accurate Credit Transactions Act2/24/200606-009HTML  PDF
audit reportConsideration of Safety and Soundness Examination Results and Other Relevant Information in the FDICs Risk-Related Premium System2/17/200606-008HTML  PDF
audit reportThe FDICs Security Certification and Accreditation Program2/15/200606-007HTML  PDF
press releaseFormer Bank Vice President Sentenced to Federal Prison for Embezzling $1.2 Million2/3/2006press releaseHTML
press releaseDallas Business Man Pleads Guilty in Federal Court to Mail Fraud and Bank Fraud Charges2/1/2006press releaseHTML
press releaseFormer Savings and Loan CEO Convicted1/31/2006press releaseHTML
evaluation reportFDIC Safeguards Over Personal Employee Information1/6/200606-005HTML  PDF
audit reportProject Management Framework for the Asset Servicing Technology Enhancement Project12/16/200506-004HTML  PDF
press releaseFormer Community Bank Executive, Kennon Patterson Sentenced12/13/2005press releaseHTML
audit reportDRRs Efforts to Recover Unclaimed Deposits12/6/200506-003HTML  PDF
evaluation reportFDICs Equal Employment Opportunity Discrimination Complaint Process11/4/200506-001HTML  PDF
GPRA Report/PlanOIG FY 2005 Performance Report9/30/2005n/aHTML  PDF
Semiannual Report to the CongressFDIC Office of Inspector General's Semiannual Report to the Congress 4/1/2005 - 9/30/20059/30/2005n/aHTML  PDF
audit reportEffectiveness of Supervisory Corrective Actions9/28/200505-039HTML  PDF
audit reportControls Over the Risk-Related Premium System9/23/200505-037HTML  PDF
audit reportDivision of Supervision and Consumer Protections Risk-Focused Compliance Examination Process9/23/200505-038HTML  PDF
evaluation reportThe FDICs Corporate University9/21/200505-035HTML  PDF
evaluation reportThe FDICs Management of Travel Costs9/21/200505-036HTML  PDF
audit reportResponse to Privacy Program Information Request in OMBs Fiscal Year 2005 Reporting Instructions for FISMA and Agency Privacy Management9/16/200505-033HTML  PDF
audit reportFollow-up Evaluation of the FDIC's Corporate Planning Cycle9/16/200505-032HTML  PDF
audit reportFDICs Information Technology Configuration Management Controls Over Operating System Software9/8/200505-031HTML  PDF
press releaseJury Finds Two Defendents Guilty of Bank Fraud, Conspiracy, False Statements, and Wire Fraud in Connection with BestBank Failure in Boulder, Colorado8/29/2005press releaseHTML
audit reportContract Solicitation and Evaluation8/11/200505-029HTML  PDF
audit reportDRRs Pre-Closing Planning Process8/8/200505-028HTML  PDF
audit reportMaximum Efficiency, Risk-focused, Institution Targeted (MERIT) Eligibility Process7/29/200505-027HTML  PDF
audit reportCapital Provision Requirements Established Under Supervisory Corrective Actions7/15/200505-026HTML  PDF
audit reportThe FDICs Investment Policies7/14/200505-025HTML  PDF
evaluation reportInside Board Member and Executive Manager Travel6/28/200505-024HTML  PDF
audit reportCentral Data Repository Project Management6/15/200505-022HTML  PDF
press releaseFormer President of Connecticut Bank of Commerce Pleads Guilty to Misapplication of Bank Monies6/14/2005press releaseHTML
evaluation reportStatus of Virginia Square Phase II Construction6/10/200505-021HTML  PDF
audit reportSystems and Data Conversion for the New Financial Environment6/9/200505-020HTML  PDF
press releaseFormer West Hartford Man Sentenced to 28 Months for Making a False Statement, Violating Supervised Release6/8/2005press releaseHTML
audit reportThe FDICs New Financial Environment (NFE) Testing6/6/200505-019HTML  PDF
audit reportImplementation of E-Government Principles5/24/200505-018HTML  PDF
testimonyOffice of Inspector General Fiscal Year 2006 Appropriation Request for the Subcommittee on the Departments of Transportation, Treasury, and HUD, The Judiciary, District of Columbia, and Independent Agencies; House Committee on Appropriations; May 11, 20055/11/2005n/aHTML
Semiannual Report to the CongressFDIC Office of Inspector General's Semiannual Report to the Congress 10/01/2004 - 3/31/20053/31/2005n/aHTML  PDF
audit reportFDICs Supervision of a Financial Institutions Compliance With the Bank Secrecy Act3/31/200505-008HTML  PDF
audit reportSecurity Controls Over the FDIC's Electronic Mail (E-mail) Infrastructure3/31/200505-016HTML  PDF
audit reportDSC's Process for Tracking and Evaluating the Impact of the MERIT Guidelines3/31/200505-015HTML  PDF
audit reportThe FDICs Process for Writing Off Assets3/31/200505-014HTML  PDF
audit reportReceivership Dividend Payments3/22/200505-013HTML  PDF
evaluation reportDivision of Supervision and Consumer Protection's Process for Identifying Current and Future Skill and Competency Requirements3/18/200505-012HTML  PDF
GPRA Report/PlanOIG FY 2004 Performance Plan3/14/2005n/aHTML  PDF
audit reportDRRs Internal Loan Servicing3/1/200505-009HTML  PDF
audit reportFollow-up Audit of the FDICs Virtual Supervisory Information on the Net Application2/28/200505-004HTML  PDF
audit reportManagement Controls Over the Re-baselined New Financial Environment Project2/18/200505-007HTML  PDF
GPRA Report/PlanOIG FY 2005 Performance Plan2/10/2005n/aHTML  PDF
audit reportFDIC's Procurement of Administrative Goods and Services1/21/200505-005HTML  PDF
evaluation reportFDICs Use of Consultants1/18/200505-003HTML  PDF
audit reportPrice Reduction on Laptop Computers1/13/200505-002HTML  PDF
press releaseThree Defendants indicted in $10 Million Fraud at Pilsen's Universal Federal Savings Bank That Resulted in 2002 Failure1/6/2005press releaseHTML
evaluation reportThe FDICs Local Telecommunications Service12/17/200405-001HTML  PDF
Semiannual Report to the CongressFDIC Office of Inspector General's Semiannual Report to the Congress 4/1/2004 - 9/30/200410/1/2004n/aHTML  PDF
OIG PlanFY2005 Office of Audit Assignment Plan10/1/2004n/aHTMLHTML  PDF
audit reportProcessing of an Appeal of a Material Supervisory Determination9/30/200404-041HTML  PDF
audit reportResponses to Questions Raised in OMBs Fiscal Year 2004 FISMA Reporting
Instructions9/30/200404-047HTML  PDF
audit reportThe Division of Supervision and Consumer Protection's Approach for Supervising Limited-Charter Depository Institutions9/30/200404-048HTML  PDF
audit reportIndependent Evaluation of the FDIC's Information Security Program-20049/30/200404-046HTML  PDF
audit reportFDIC's Implementation of the Sarbanes-Oxley Act of 20029/29/200404-042HTML  PDF
audit reportAcquisition Planning and Execution Strategy9/29/200404-043HTML  PDF
audit reportFDICs Allocation of Records Storage Costs9/29/200404-044HTML  PDF
audit reportDivision of Supervision and Consumer Protection's Regional Office Structure9/28/200404-040HTML  PDF
evaluation reportFDIC's Capital Investment Management Review Process for Information Technology Investments9/23/200404-039HTML  PDF
audit reportFDIC's IT Contingency Planning Program9/22/200404-038HTML  PDF
audit reportFDIC's Mainframe Security9/21/200404-037HTML  PDF
audit reportSupervision Appeals Review Committee Decision Regarding the Appeal of a Fair Lending Violation9/20/200404-036HTML  PDF
audit reportProceeds From Terminated Securitizations9/13/200404-034HTML  PDF
audit reportRepurchases of Superior Federal, FSB, Loan Assets Sold to Beal Bank ( and corresponding Supplemental Report )9/13/200404-035HTML  PDF
audit reportDivision of Supervision and Consumer Protections Assessment of Bank Management9/8/200404-033HTML  PDF
audit reportStrategies for Enhancing Corporate Governance9/3/200404-032HTML  PDF
Office of Audits Peer Review ReportOffice of Audits Peer Review Report9/1/2004n/aHTML  PDF
audit reportRetention Strategies for Failed Insured Depository Institution Employees8/20/200404-030HTML  PDF
evaluation reportFDICs Business Continuity Plan8/9/200404-029HTML  PDF
audit reportFDICs Virtual Supervisory Information on the Net (ViSION) Application7/30/200404-027HTML  PDF
audit reportFDICs IT Security Risk Management Program  Overall Program Policies and
Procedures and the Risk Assessment Process7/30/200404-028HTML  PDF
audit reportRegional Contract Operations7/16/200404-025HTML  PDF
testimonyHearing on Inspector General Functionality and Independence before the Subcommittee on Government Efficiency and Financial Management; House Committee on Government Reform; July 14, 20047/14/2004n/aHTML
audit reportAudit of FDICs Public Key Infrastructure Certificate Policy and Extranet Certification Practice Statement7/2/200404-024HTML  PDF
audit reportFDICs Insured Depository Institution Closing Procedures6/30/200404-023HTML  PDF
audit reportFDIC's Information Technology Examination Program6/15/200404-022HTML  PDF
audit reportImplementation of Physical Security Policies6/15/200404-021HTML  PDF
evaluation reportFDIC's Software Management Program6/8/200404-020HTML  PDF
testimonyHearing on Bank Secrecy Act Compliance and Enforcement before the Senate Committee on Banking, Housing and Urban Affairs; June 3, 20046/3/2004n/aHTML
audit reportEnhancements to the FDIC System Development Life Cycle Methodology4/30/200404-019HTML  PDF
audit reportControl Framework for the Virginia Square Phase II Project4/22/200404-018HTML  PDF
Semiannual Report to the CongressFDIC Office of Inspector General's Semiannual Report to the Congress, 10/01/2003 - 3/31/20043/31/2004n/aHTML  PDF
audit reportSupervisory Actions Taken for Bank Secrecy Act Violations3/31/200404-017HTML  PDF
audit reportAudit of FDIC's Personnel Security Program3/30/200404-016HTML  PDF
audit reportDivision of Supervision and Consumer Protection's Supervisory Appeals Process3/29/200404-015HTML  PDF
audit reportFDIC's Reliance on State and Safety and Soundness Examinations3/26/200404-013HTML  PDF
evaluation reportXBAT Contracting and Project Management3/26/200404-014HTML  PDF
testimonyOversight Hearing of the FDIC: Perspective of the Office of Inspector General before the Subcommittee on Oversight and Investigations; House Committee on Financial Services; March 4, 20043/4/2004n/aHTML
evaluation reportFDICs Approach to Data Sensitivity for Legacy Applications2/27/200404-011HTML  PDF
audit reportEvaluation of FDICs Unix Systems Security2/13/200404-008HTML  PDF
audit reportEvaluation of FDICs Intrusion Detection and Incident Response Capability2/13/200404-009HTML  PDF
audit reportFDIC-Sponsored Dental Insurance Eligibility and Premium Payments1/30/200404-007HTML  PDF
evaluation reportThe FDICs Strategic Alignment of Human Capital1/23/200404-005HTML  PDF
audit reportObservations from FDIC OIG Material Loss Reviews Conducted 1993 through 20031/22/200404-004HTML  PDF
audit reportThe FDICs 2003 Service Line Rates1/15/200404-002HTML  PDF
GPRA Report/PlanOIG Strategic Plan (FY 2004 - 2008)1/9/2004n/aHTML  PDF
Semiannual Report to the CongressFDIC Office of Inspector General's Semiannual Report to the Congress 4/1/2003 - 9/30/200310/1/2003n/aHTML  PDF
audit reportNew Financial Environment Scope Management Controls, September 29, 20039/29/200303-045HTML  PDF
audit reportFollow-up Audit of Information Security Management of FDIC Contractors9/26/200303-043HTML  PDF
audit reportThe Federal Deposit Insurance Corporations Progress in Implementing the Gramm-Leach-Bliley Act, Title V -- Privacy Provisions9/26/200303-044HTML  PDF
evaluation reportBusiness Continuity Planning at FDIC-Supervised Institutions9/25/200303-042HTML  PDF
audit reportInsurance Determination Claims Process9/17/200303-041HTML  PDF
audit reportIndependent Evaluation of the FDIC's Information Security Program-20039/17/200303-040HTML  PDF
audit reportDivision of Resolutions and Receiverships' Asset Valuations at Specific Closings9/12/200303-039HTML  PDF
audit reportThe Role of Prompt Corrective Action as Part of the Enforcement Process9/12/200303-038HTML  PDF
audit reportThe FDIC's Implementation of the USA PATRIOT Act9/5/200303-037HTML  PDF
audit reportSecurity Patch Management Review8/21/200303-035HTML  PDF
audit reportMaterial Loss Review of the Failure of Southern Pacific Bank, Torrance, California8/14/200303-036HTML  PDF
audit reportLife-Cycle Management of Information Technology Assets  03-0328/13/200303-032HTML  PDF
audit reportThe FDIC's Implementation of Its Information Security Strategic Plan7/18/200303-031HTML  PDF
audit reportRemote Access Systems Review6/5/200303-030HTML  PDF
audit reportThe Division of Resolutions and Receiverships Resolution and Management of Credit Card Portfolios4/17/200303-029HTML  PDF
audit reportTrusted Information Systems Review4/14/200303-028HTML  PDF
audit reportThe Division of Supervision and Consumer Protection's Reporting on Issues Related to Problem Banks3/31/200303-022HTML  PDF
Semiannual Report to the CongressFDIC Office of Inspector General's Semiannual Report to the Congress, 10/01/2002 - 3/31/20033/31/2003n/aHTML  PDF
audit reportThe Division of Resolutions and Receiverships' Controls over Data Input to the Service Costing System3/31/200303-027HTML  PDF
audit reportInternal Control over Receivables from Failed Insured Depository Institutions3/28/200303-026HTML  PDF
audit reportInternal Control over Receivership Receipts3/27/200303-024HTML  PDF
evaluation reportThe Division of Supervision and Consumer Protection's Examination of Transactions with Affiliates (Evaluation Report) -- HTML or PDF (1,577Kb)3/27/200303-025HTML  PDF
audit reportFDIC Examiner Use of Work Performed by Independent Public Accountants (IPAs) -- HTML or PDF (320Kb)3/26/200303-021HTML  PDF
evaluation reportTravel, Relocation, and State Income Tax Withholding Policies and Procedures -- HTML or PDF (1,023Kb)3/24/200303-020HTML  PDF
audit reportReview of FFIEC Call Report Modernization Cost Benefit Analysis -- HTML or PDF (309Kb)3/21/200303-018HTML  PDF
audit reportThe Division of Supervision and Consumer Protection's Examination Assessment of Subprime Lending -- HTML or PDF (377Kb)3/18/200303-019HTML  PDF
audit reportMaterial Loss Review of the Failure of the Connecticut Bank of Commerce, Stamford, Connecticut -- HTML or PDF (1,129Kb)3/10/200303-017HTML  PDF
audit reportThe New Financial Environment Project Control Framework3/5/200303-016HTML  PDF
audit reportControl Over the Use and Protection of Social Security Numbers by Federal Agencies2/14/200303-012HTML  PDF
audit reportFDIC Procurement Credit Card Program (and Supplement) -- HTML or PDF (341Kb)1/31/200303-013HTML  PDF
audit reportExaminer Assessment of Commercial Real Estate Loans (and Supplement) -- HTML or PDF (1,601Kb)1/3/200303-008HTML  PDF
audit reportExaminer Assessment of High Loan-Growth Institutions (and Supplement) -- HTML or PDF (649Kb)12/23/200203-009HTML  PDF
audit reportPhase II Network Operations Vulnerability Assessment11/25/200203-007HTML  PDF
audit reportDSC Procedures for Addressing Deviations from Business Plans by Newly Established Banks -- HTML or PDF (386Kb)11/18/200203-006HTML  PDF
evaluation reportEvaluation of the FDICs Corporate Readiness Plan -- HTML or PDF (562Kb)11/4/200203-005HTML  PDF
evaluation reportControl over Board Members' Travel (Evaluation Report) -- HTML or PDF (278Kb)10/3/200203-003HTML  PDF
Semiannual Report to the CongressFDIC Office of Inspector General's Semiannual Report to the Congress 4/1/2002 - 9/30/200210/1/2002n/aHTML  PDF
audit reportStatistical CAMELS Offsite Rating Review Program for FDIC-Supervised Banks9/26/200202-033HTML  PDF
audit reportReceivership Termination Activity9/20/200202-032HTML  PDF
audit reportFDIC Travel Card Program8/30/200202-030HTML  PDF
audit reportDivision of Supervision Implementation of Gramm-Leach-Bliley7/31/200202-025HTML  PDF
audit reportMarketing and Resolution of Superior Federal, FSB (New Superior)7/24/200202-024HTML  PDF
audit reportThe FDIC's Assessment of Corrective Action Work Performed by Third-Party Contractors7/24/200202-016HTML  PDF
evaluation reportJoint Evaluation of the Federal Financial Institutions Examination Council6/21/200202-003eHTML  PDF
audit reportAudit of the Professional Liability Claims Process6/14/200202-019HTML  PDF
audit reportFDICs Strategy for Managing Improper Payments5/31/200202-022HTML  PDF
audit reportAsset Valuation Review (AVR) Process for Sinclair National Bank4/30/200202-017HTML  PDF
Semiannual Report to the CongressFDIC Office of Inspector General's Semiannual Report to the Congress 10/01/2001 - 3/31/20023/31/2002n/aHTML  PDF
audit reportCapitalization of Internal-Use Software Development Costs3/29/200202-014HTML  PDF
audit reportThe Division of Compliance and Consumer Affairs' Risk-Scoping Process for Fair Lending Examinations3/26/200202-009HTML  PDF
audit reportThe FDIC's Efforts to Implement a Single Sign-on Process3/22/200202-008HTML  PDF
audit reportThe FDIC's Program for Managing FDIC-Owned Buildings at Headquarters3/21/200202-007HTML  PDF
audit reportDRR's Efforts to Facilitate Collections on Criminal Restitution Orders3/5/200202-006HTML  PDF
audit reportFollow-up Audit of the FDIC's Use of Special Examination Authority and DOS's Efforts to Monitor Large Bank Insurance Risks2/20/200202-004HTML  PDF
audit reportControls Over Outlook Resources2/14/200202-003HTML  PDF
evaluation reportEvaluation of Rating Differences Between the FDIC and Other Primary Federal Regulators2/8/200202-001eHTML  PDF
audit reportLeast Cost Decision of Superior Bank and Liquidation of Remaining Receivership Assets2/8/200202-002HTML  PDF
audit reportIssues Related to the Failure of Superior Bank, FSB, Hinsdale, Illinois2/6/200202-005HTML  PDF
audit reportFollow-up Audit of Internal Controls over the Customer Information and Control System for FDIC Financial Systems1/2/200202-001HTML  PDF
audit reportAudit of the Least Cost Test Model12/13/200101-025PDF
evaluation reportThe New Financial Environment Project12/7/200101-004ePDF
audit reportThe FDIC's Identification of and Accounting for Unclaimed Deposits Transferred to State Unclaimed Property Agencies12/5/200101-024PDF
Semiannual Report to the CongressFDIC Office of Inspector General's Semiannual Report to the Congress 4/1/2001 - 9/30/200110/1/2001n/aPDF  PDF
audit reportAudit of the FDIC's Planning for the Institution Data Managment Project9/28/200101-023PDF
audit reportIndependent Evaluation of the FDIC's Information Security Program Required by the Government Information Security Reform Act9/20/200101-022PDF
evaluation reportField Office Cost, Space Utilization,Design, and Usage8/27/200101-003ePDF
evaluation reportReview of FDIC's Background Investigation Process for Prospective and Current Employees8/17/200101-002ePDF
audit reportImprovements Can Be Made to the FDIC's Independent Security Review Process8/17/200101-021PDF
audit reportAudit of Selected Training and Consulting Services Branch Contracts8/2/200101-018PDF
audit reportAudit of Ecker Square Building Renovation Contract Modifications7/27/200101-019PDF
audit reportDevelopment of the FDIC's Public Key Infrastructure5/24/200101-011PDF
Semiannual Report to the CongressFDIC Office of Inspector General's Semiannual Report to the Congress 10/01/2000 - 3/31/20013/31/2001n/aPDF  PDF
audit reportExamination Assessment of Bank Secrecy Act Compliance3/30/200101-013PDF
audit reportAudit of FDIC's Compliance with 26 CFR 1.6050 M-13/30/200101-015PDF
audit reportAudit of DOS's Use of Expanded and Impact Examination Procedures in the Risk-Focused Examination Process3/30/200101-016PDF
audit reportSemiannual Report of FDIC Board Members' Travel Voucher Reviews - September 2000 to February 20013/29/200101-014PDF
audit reportControls Over the FDIC's Laptop Computer Inventory3/28/200101-012PDF
audit reportAudit of the FDIC's Timeliness of Processing Applications for Deposit Insurance3/23/200101-010PDF
audit reportAudit of the FDIC's Information Technology Risk Management Program3/14/200101-007PDF
audit reportAudit of Claims Made to the Credit Enhancement Reserve Funds for Securitization Transactions 1992-03 and 1992-043/8/200101-008PDF
audit reportSecuritization Transactions Serviced by PNC Mortgage: Audit of Duplicate Principal and Interest Advances3/8/200101-009PDF
evaluation reportReview of Processes Used to Verify and Validate Government Performance Results Act Performance Data2/21/200101-001ePDF
audit reportAudit of the FDIC's Application Maintenance Budgets2/12/200101-006PDF
audit reportAudit of the Use of Overtime Within the FDIC2/6/200101-005PDF
audit reportAudit of the Contractor Background Investigation Process2/1/200101-004PDF
audit reportImplementation of Release I of the Corporate Human Resources Information System1/24/200101-003PDF
audit reportAudit of Billings for Professional Services Provided by ACS Government Solutions Group (with addendum Audit Report No. 01-002-1, June 4, 20011/11/200101-002PDF
audit reportAudit of The Ratcliff Architects' Professional Fee Billings Under Contract 97-00384-S-JW1/10/200101-001PDF
audit reportReceivership Liability System Staffing & Training12/28/200000-051PDF
audit reportAudit of Real Estate Owned by the Federal Deposit Insurance Corporation and Its Receivership and Subsidiaries12/18/200000-050PDF
audit reportComputer Virus Protection Program12/6/200000-049PDF
audit reportAudit of the QSS Group's Billings to the FDIC for Information Technology Services11/14/200000-048PDF
audit reportAudit of Final Tax Returns for Northeast Service Center Dissolved Subsidiaries10/31/200000-046PDF
audit reportAudit of American Pension Management's Administration of Employee Benefit Plans for Failed Financial Institutions10/19/200000-047PDF
evaluation reportFDIC's Information Handling Practices for Sensitive Employee Data10/11/200000-006ePDF
evaluation reportMCI Voice and Video Contract - Intrastate Surcharge and Other Compliance Issues9/29/200000-005ePDF
audit reportAudit of DIRM's Actions to Ensure Quality Products9/25/200000-043PDF
audit reportReview of the Claims made to the Credit Enhancement Reserve Fund for Securitization Transaction 1992-039/20/200000-044PDF
audit reportAudit of Dallas Field Operations Branch's Subsidiary Inventory9/12/200000-039PDF
audit reportAudit of FDIC's Payments for Claims Expenses Related to Repurchased Commercial Loans with Environmental Issues9/12/200000-042PDF
audit reportReview of the Claims made to the Credit Enhancement Reserve Fund for Securitization Transaction 1992-049/8/200000-041PDF
audit reportFDIC Health Benefits Program Administered by Aetna U.S. Healthcare9/6/200000-040PDF
audit reportAudit of the Information Technology Configuration Management Program9/1/200000-038PDF
audit reportAudit of Payments to COMSO, Inc.8/29/200000-036PDF
audit reportPacific Place Lease Agreement8/25/200000-037PDF
audit reportReview of the Claims made to the Credit Enhancement Reserve Fund for Securitization Transaction 1991-018/21/200000-034PDF
audit reportReview of the Claims made to the Credit Enhancement Reserve Fund for Securitization Transaction 1991-128/21/200000-035PDF
audit reportReview of the Claims made to the Credit Enhancement Reserve Fund for Securitization Transaction 1991-078/3/200000-031PDF
audit reportReview of the Claims made to the Credit Enhancement Reserve Fund for Securitization Transaction 1992-018/3/200000-032PDF
audit reportAudit of the Residual Interests from Asset Disposition Decisions by Settlement and Workout Asset Teams8/1/200000-033PDF
audit reportAudit of the Development of the Electronic Travel Voucher Payment System7/28/200000-030PDF
audit reportReview of the Claims made to the Credit Enhancement Reserve Fund for Securitization Transaction 1991-097/21/200000-028PDF
audit reportReview of the Claims made to the Credit Enhancement Reserve Fund for Securitization Transaction 1991-157/21/200000-029PDF
audit reportAudit of the Division of Compliance and Consumer Affairs' Community Reinvestment Act Examination Process7/7/200000-026PDF
audit reportAudit of the FDIC's Identification and Classification of Environmentally Impaired Assets7/7/200000-027PDF
audit reportReview of the Claims Made to the Credit Enhancement Reserve Fund Securitization Transaction 1991-037/6/200000-024PDF
audit reportAudit of the Northeast Service Center's Collateral Vault6/30/200000-025PDF
audit reportPacific Place Renovation Project6/26/200000-023PDF
audit reportAudit Securitization RTC 1992-C46/7/200000-020PDF
audit reportMaterial Loss Review - The Failure of Pacific Thrift and Loan Company, Woodland Hills, California6/7/200000-022PDF
audit reportAudit of Payments to CIBER, inc.6/2/200000-021PDF
audit reportAudit of the Implementation of Corrective Actions5/25/200000-019PDF
audit reportAudit of the Corporation's Procurement and Travel Credit Card Programs5/24/200000-015PDF
audit reportReview of DOS Controls over the SHARP System5/22/200000-017PDF
audit reportReview of DCA Controls over the SHARP System5/22/200000-018PDF
audit reportFollow-up Audit of the Implementation of the Risk-Focused Examination Process5/5/200000-016PDF
Semiannual Report to the CongressFDIC Office of Inspector General's Semiannual Report to the Congress 4/1/2000 - 9/30/20004/1/2000n/aPDF
Semiannual Report to the CongressFDIC Office of Inspector General's Semiannual Report to the Congress 10/01/1999 - 3/31/20003/31/2000n/aPDF
audit reportAudit of the FDIC's Strategic Planning for Information Technology Reaources3/31/200000-013PDF
audit reportAudit of the Accounts Payable Operations in Washington, D.C.3/31/200000-014PDF
audit reportAcquisition of Software and Services to Support the Corporate Human Resources Information System3/30/200000-011PDF
audit reportMortgage Project Group's Billings3/28/200000-010PDF
audit reportSpecial Report on FDIC's Year 2000 Efforts3/24/200000-012PDF
audit reportSemiannual Report of FDIC Board Member's Travel Voucher Reviews - September 1999 to February 20003/23/200000-009PDF
audit reportAudit of the Income, Expenses, and Distributions of the Overland National Land Fund Limited Partnership, Monrovia, CA3/20/200000-008PDF
evaluation reportFDIC's Privacy and Security Notices - Requirements and Policy Statements on the Internet and Intranet3/19/200000-004ePDF
audit reportAudit of RTC Mortgage Trust 1993-N33/17/200000-005PDF
audit reportAudit of RTC Mortgage Trust 1994-N13/17/200000-006PDF
audit reportAudit of RTC Mortgage Trust 1994-N23/17/200000-007PDF
audit reportAudit of Northeast Service Center's Subsidiary Inventory3/13/200000-003PDF
audit reportIndustrial Revenue Bond Partnership TEJV-1, L.P.3/3/200000-004PDF
evaluation reportThe Division of Compliance and Consumer Affairs' Reporting of Examinations and Activities in FDIC Quarterly Performance Reports2/24/200000-002ePDF
evaluation reportInternal Controls Over Confidential Information Collected and Generated During the Application Process2/24/200000-003ePDF
audit reportManagement Review of Division of Supervision Tracking Systems2/23/200000-002PDF
evaluation reportFDIC's Energy Management and Conservation Efforts2/2/200000-001ePDF
audit reportInternal Controls Over Receivership Employee Benefit Plans1/12/200000-001PDF
audit reportAudit of Data Integrity Controls for Selected Division of Resolutions and Receiverships (DRR) Automated Systems12/21/199999-047PDF
evaluation reportMCI Voice and Video Contract -- Price Warranty12/20/199999-009ePDF
audit reportAudit of RTC Mortgage Trust 1994 S-612/16/199999-046PDF
evaluation reportMCI Voice and Video Contract - Contract Monitoring12/12/199900-007ePDF
audit reportDelegations of Authority for Asset Disposition LA11/29/199999-045PDF
audit reportAudit of Loan Processing and Disposition Procedures - Southwest Bank, Jennings LA11/24/199999-044PDF
audit reportDOS Actions Regarding Internet Banking10/27/199999-043PDF
Audit MemorandumAudit Memorandum - Results of OIG Review of the Backup Examination Process and DOS's Efforts to Monitor Megabank Insurance Risks October 19, 199910/19/1999n/aPDF
Semiannual Report to the CongressFDIC Office of Inspector General's Semiannual Report to the Congress 4/1/1999 - 9/30/199910/1/1999n/aPDF
evaluation reportEvaluation of the FDIC Regional Copier Program9/30/199999-007ePDF
audit reportAudit of the Award and Administration of DIRM Service Contracts9/30/199999-041PDF
audit reportAnalysis of Division of Compliance and Consumer Affairs 1999 Examination Workload9/30/199999-042PDF
audit reportSemiannual Report to the FDIC Board Member's Travel Voucher Reviews - March 1999 to August 19999/27/199999-040PDF
audit reportCost Effectiveness of the National Insurance Program9/20/199999-039PDF
audit reportAudit of RTC Mortgage Trust 1992-N18/23/199999-035PDF
evaluation reportFDIC's Relocation Program: Benefits and Cost Comparison and Lump Sum Allowance8/19/199999-006ePDF
audit reportAudit of Payments to Dames & Moore8/17/199999-036PDF
audit reportAnalysis of Division of Supervision's 1999 Examination Workload8/17/199999-037PDF
audit reportAudit of Abandoned Assets Held by States' Unclaimed Property Agencies8/17/199999-038PDF
audit reportAudit of Legal Fees Paid to Adorno & Zeder, P.A.8/12/199999-034PDF
audit reportAudit of Legal Fees Paid to Peabody & Arnold, L.L.P.8/5/199999-033PDF
audit reportDivision of Supervision Reliance on State Examinations8/2/199999-032PDF
audit reportAudit of Personnel Action Processing Controls and Security7/29/199999-028PDF
audit reportSun NLF, Limited Partnership -- Sterling Pacific Assets, Roseville, California7/28/199999-030PDF
audit reportAudit of Legal Fees Paid to Roy, Kiesel & Tucker7/27/199999-031PDF
audit reportKenneth Leventhal's Billings for Due Diligence Services Under Contract 700-90-0014 and Unsigned Letter Agreement Dated May 29, 19927/16/199999-029PDF
audit reportLimited Scope Audit of the Credit Enhancement Reserve Funds for Securitization Transactions 1991-16 and 1992-057/6/199999-027PDF
evaluation reportFDIC's Relocation Program: Benefits and Cost Comparison and Lump Sum Allowance7/2/199999-005ePDF
evaluation reportEvaluation of the FDIC Headquarters Copier Administration Program6/15/199999-004ePDF
audit reportAudit of Legal Fees Paid to Mullin, Hoard & Brown, L.L.P.6/7/199999-026PDF
audit reportAudit of Legal Fees Paid to Twomey, Hoppe, & Gallanty, L.L.P.5/20/199999-025PDF
audit reportAudit of Legal Fees Paid to Hunton & Williams5/5/199999-024PDF
audit reportKenneth Leventhal's Billings for Due Diligance Service under Contract 700-90-001 and Letter Agreement Dated May 26, 19924/22/199999-023PDF
audit reportBank Midwest, NA - RTC Mortgage trust 1995 - SN24/15/199999-021PDF
audit reportAudit of Legal Fees Paid to Baker & Botts4/14/199999-022PDF
audit reportFollow-on Audit of FDIC's General Examination System Development Project3/31/199999-020PDF
audit reportSecuritization Credit Enhancement Reserve Fund 1992-63/31/199999-018PDF
Semiannual Report to the CongressFDIC Office of Inspector General's Semiannual Report to the Congress 10/01/1998 - 3/31/19993/31/1999n/aPDF
evaluation reportDivision of Supervision Case Manager Program - Views of Those Who Are Implementing It3/31/199999-003ePDF
Joint ReviewJoint Review of the Federal Financial Institutions Examination Council's Training Program March 31, 19993/31/1999n/aPDF
evaluation reportManagement and Buyout of the River Ridge Branch Lease3/26/199999-002ePDF
audit reportRTC Mortgage Trust 1995 NP3-33/26/199999-019PDF
audit reportSemiannual Report of FDIC Board Member's' Travel Voucher Reviews - September 1998 to February 19993/26/199999-017PDF
audit reportCryptographic Infrastructure Design3/19/199999-016PDF
audit reportReview of DCA Policy for Determining Examination Frequency, Scope, and Priority3/15/199999-013PDF
audit reportLegal Fees Paid by RTC to Brobeck, Phleger & Harrison3/12/199999-014PDF
audit reportLegal Fees Paid by FDIC to Brobeck, Phleger & Harrison3/12/199999-015PDF
evaluation reportFederal Deposit Insurance Corporation's Processing of Freedom of Information Act Requests2/26/199999-001ePDF
audit reportAudit of Time and Attendance Processing System Development Project II2/17/199999-011PDF
audit reportAudit of Ocwen Federal Bank's Servicing of RTC Mortgage Trust 1994-S22/12/199999-010PDF
audit reportLegal Fees Paid by RTC to Salem, Saxon & Nielson2/11/199999-012PDF
audit reportAudit of FDIC's Food Services Contract with Aramark2/5/199999-009PDF
audit reportAudit of Wendover Funding's Loan Servicing Contracts1/25/199999-008PDF
audit reportAudit of Legal Fees Paid to Comey, Boyd & Luskin1/25/199999-006PDF
audit reportMaterial Loss Review of the Failure of BestBank, Boulder, Colorado1/22/199999-005PDF
audit reportAudit of Legal Fees Paid by FDIC and RTC to Lowe & Associates1/20/199999-007PDF
audit reportAudit of Shelter Cove Property Management Contracts1/11/199999-003PDF
audit reportAEW's Performance Under Contract Number 0700-92-0016-0031/8/199999-001PDF
audit reportSupplemental Special Servicing Fees Billed for Securitizations 1992-M3, 1992-C5, 1994-C2, 1992-C1, and 1992-M21/8/199999-002PDF
audit reportAudit of the Credit Enhancement Reserve Fund for Securitization Transaction 1993-0311/24/199898-090HTML
audit reportAudit of DOS Coordination of Examinations with State Banking Authorities in the Kansas City Region11/19/199898-089HTML
audit reportAudit of the Application Support Company10/30/199898-084HTML
audit reportAudit of the Processing of Adverse Personnel Actions10/30/199898-088HTML
audit reportAudit of Information Systems Security - Dallas10/22/199898-087HTML
audit reportSecuritization Credit Enhancement Reserve Fund 1992-CHF10/2/199898-083HTML
audit reportAudit of Regal Management and Systems' Contracts9/29/199898-082HTML
audit reportAudit of the DOS Disclosure Group's Processing of Public Requests for Uniform Bank Performance Reports and Call Reports9/22/199898-081HTML
audit reportAudit of DIRM Operating Expenses9/15/199898-080HTML
audit reportAudit of Legal Fees Paid to Lathrop & Gage L.C. 8/31/199898-076HTML
audit reportAudit of Legal Fees Paid to Clark Hill, P.L.C.8/31/199898-077HTML
audit reportComputer Equipment and Software Inventories8/28/199898-078HTML
audit reportOntra's Use and Oversight of Law Firms Under RTC's Mortgage Trust 1994 N-3/S8/6/199898-075HTML
audit reportKenneth Leventhal's Billings for Due Diligence Services Under Contract 700-90-0014, Letter Agreement Dated January 6, 1993 7/31/199898-074HTML
audit reportAudit of the Legal Division's Fee Bill Review and Approval Process7/13/199898-072HTML
audit reportLegal Fees Paid by RTC to Jeffer, Mangels, Butler & Marmaro 7/8/199898-073HTML
audit reportLegal Fees Paid by RTC to Morgan, Lewis & Bockius6/30/199898-070HTML
audit reportAudit of Implementation of Electronic Signatures to Support the Electronic Travel Voucher Payment System (ETVPS) and Other Planned Applications6/30/199898-052HTML
audit reportLegal Fees Paid by FDIC to Arter & Hadden6/29/199898-065HTML
audit reportLegal Fees Paid to Jordan & Keys, L.L.P.6/29/199898-071HTML
audit reportLegal Fees Paid by FDIC to Morgan, Lewis & Bockius6/26/199898-068HTML
audit reportLegal Fees Paid by RTC to Dickstein, Shapiro & Morin6/26/199898-069HTML
audit reportLegal Fees Paid by FDIC and RTC to Arnelle, Hastie, McGee, Willis & Greene6/24/199898-066HTML
audit reportLegal Fees Paid by FDIC and RTC to Hughes, Hubbard & Reed6/24/199898-067HTML
audit reportLegal Fees Paid by FDIC to Dickstein, Shapiro & Morin, L.L.P.6/23/199898-063HTML
audit reportLegal Fees Paid by FDIC to Sachnoff & Weaver6/23/199898-064HTML
audit reportLegal Fees Paid by FDIC to Morrison & Hecker L.L.P.6/22/199898-059HTML
audit reportFDIC's Corporate Data Sharing Initiative and Data Warehouse Projects6/19/199898-055HTML
audit reportLegal Fees Paid by RTC to Sachnoff & Weaver6/19/199898-061HTML
audit reportLegal Fees Paid by RTC to Holland & Knight6/19/199898-062HTML
audit reportLegal Fees Paid by RTC to Haynes & Boone6/18/199898-060HTML
audit reportLegal Fees Paid by the FDIC to Brill, Sinex & Stephenson6/18/199898-053HTML
audit reportLegal Fees Paid by FDIC to Morrison & Hecker L.L.P.6/15/199898-045HTML
audit reportLegal Fees Paid by FDIC to Haynes & Boone6/15/199898-051HTML
audit reportLegal Division Supplemental Response to OIG Audit Reports on Legal Fees Paid to Baker & Hostetler 6/12/199898-050HTML
audit reportLegal Fees Paid by RTC to Testa, Hurwitz & Thibeault6/12/199898-054HTML
audit reportLegal Fees Paid by FDIC to Bayh, Connaughton & Malone6/12/199898-056HTML
audit reportLegal Fees Paid by FDIC to Testa, Hurwitz & Thibeault6/12/199898-057HTML
audit reportLegal Fees Paid by FDIC to Holland & Knight6/12/199898-058HTML
audit reportRTC Mortgage Trust 1995-SN16/5/199898-049HTML
audit reportLegal Fees Paid by FDIC and RTC to Dewey Ballantine 6/3/199898-046HTML
audit reportLegal FeesPaid by FDIC to Frandzel & Share5/26/199898-047HTML
audit reportMartin W. Cohen Billings for Subsidiary Services Under Contract 0760-93-0179-0025/26/199898-048HTML
audit reportAudit of Disciplinary Enforcement Actions Against Bank Officers and Directors: Boston Regional Office4/28/199898-044HTML
audit reportLegal Fees Paid by FDIC and RTC to Hopkins & Sutter4/24/199898-043HTML
audit reportLegal Fees Paid by RTC to Frandzel & Share4/17/199898-036HTML
audit reportLegal Fees Paid by RTC to Brownstein, Zeidman & Lore4/17/199898-038HTML
audit reportLegal Fees Paid by RTC to Baker & Hostetler4/13/199898-041HTML
audit reportLegal Fees Paid by FDIC to Baker & Hostetler4/13/199898-042HTML
audit reportLegal Fees Paid by RTC toGilpin, Paxson & Bersch4/10/199898-023HTML
audit reportAudit of Midland Loan Services - Fee Billings Under Contract 783-92-0047-0014/8/199898-040HTML
audit reportLegal Fees Paid by FDIC to Rogers, Towers, Bailey, Jones & Gay3/31/199898-037HTML
audit reportLegal Fees Paid by FDIC to Gable & Gotwals3/26/199898-035HTML
audit reportLegal Fees Paid by FDIC to Nagel, Rice & Dreifuss3/24/199898-030HTML
audit reportAudit of FDIC's Equity Interest in Saugus Corporation3/23/199898-031HTML
audit reportAudit of Enforcement Actions by FDIC's Chicago Region3/23/199898-032HTML
audit reportLegal Fees Paid by RTC to Hogan & Hartson3/23/199898-033HTML
audit reportLegal Fees Paid by RTC to Nagel, Rice & Dreifuss3/23/199898-034HTML
audit reportLegal Fees Paid by FDIC and RTC to Powell, Goldstein, Frazer & Murphy3/17/199898-028HTML
audit reportLegal Fees Paid by RTC to Bayh, Connaughtn & Malone3/17/199898-029HTML
audit reportSemiannual Report of FDIC Board Members' Travel Vouchers Reviews - September 1997 to February 19983/13/199898-027HTML
audit reportLegal Fees Paid by RTC to Schnader, Harrison, Segal & Lewis3/10/199898-024HTML
audit reportLegal Fees Paid by RTC to Bronson, Bronson & McKinnon3/10/199898-025HTML
audit reportLegal Fees Paid by FDIC to Buchalter, Nemer, Fields & Younger3/10/199898-022HTML
audit reportLegal Fees Paid by RTC to Fendig, Mclemore, Taylor & Whtworth, P.C.3/3/199898-021HTML
audit reportLegal Fees Paid by FDIC to Bronson, Bronson & McKinnon3/3/199898-017HTML
audit reportAudit of Resource and Cost Tracking Systems for Information systems Project2/27/199898-019HTML
audit reportLegal Fees Paid by RTC to Buchalter, Nemer, Fields & Younger2/24/199898-018HTML
audit reportLegal Fees Paid by RTC to Holland & Hart2/20/199898-020HTML
audit reportLegal Fees Paid by RTC to Kantrow, Spaht, Weaver & Blitzer2/12/199898-015HTML
audit reportLegal Fees Paid by RTC to Riker, Danzig, Scherer, Hyland & Perretti2/12/199898-016HTML
audit reportLegal Fees Paid by FDIC to Pillsbury, Madison & Sutro2/12/199898-012HTML
audit reportFisher Auction Company's Billings Under Basic Ordering Agreement 508-021-028-RLPM for ORE Auction Services, Task Order NESC-0012/9/199898-014HTML
audit reportAccounting for Standard Asset Management and Disposition Agreement Contractors' Operating and Receipt Accounts2/4/199898-013HTML
audit reportAudit of Graebel Atlanta Movers' Billings to FDIC's Atlanta Office1/26/199898-011HTML
audit reportLegal Fees Paid by FDIC to Gunster, Yoakley, Valdes-Fauli & Stewart1/14/199898-007HTML
audit reportAudit of the 1996 Fund Allocation and Recovery Charges1/14/199898-008HTML
audit reportAudit of Bulk Sale Activities of Consolidated Asset Recovery Corporation 1/14/199898-009HTML
audit reportLegal Fees Paid by RTC to Miller, Hamilton, Snider & Odom1/9/199898-002HTML
audit reportLegal Fees Paid by the FDIC to Miller, Hamilton, Snider & Odom1/9/199898-003HTML
audit reportLegal Fees Paid by RTC to Rosenman & Colin1/9/199898-004HTML
audit reportLegal Fees Paid by RTC to Gunster, Yoakley, Valdes-Fauli & Stewart1/9/199898-005HTML
audit reportLegal Fees Paid by RTC to Pillsbury, Madison & Sutro1/9/199898-006HTML
MLR Reports PageOIG MLR Reports Pagen/aHTMLHTML  PDF
FDIC OIG HotlineFDIC OIG Hotlinen/aHTML
Contact the OIGContact the OIGn/aHTML
GPRA Report/PlanOIG 1999 Annual Performance Plann/aPDF
GPRA Report/PlanOIG  2000 Annual Performance Plann/aPDF
GPRA Report/PlanOIG  2001 Annual Performance Plann/aPDF
GPRA Report/PlanOIG Strategic Plan 1999-2004n/aPDF
GPRA pageGPRA page containing plans and reportsn/aHTML
OIG OrganizationOIG Oranizationn/aHTML
OIG GoalsOIG Goalsn/aHTML
FOIAOIG FOIAn/aHTML
The Inspector GeneralThe Inspector Generaln/aHTML
OIG PublicationsOIG Publicationsn/aHTML
OIG Home PageOIG Home Pagen/aHTML
OIG Employment pageOIG Employmentn/aHTML
OIG Web Privacy StatementOIG Web Privacy Statementn/aHTML
FDIC OIG Hotline Privacy StatementFDIC OIG Hotline Privacy Statementn/aHTML
recently posted itemsRecent Updatesn/aHTML  - [ 824 ]    matching   "       "
.
SEARCH
ACCESSIBILITY
PRIVACY
INFORMATION QUALITY
PLAIN WRITING ACT OF 2010
CONTACT US
SITE MAP
HOME
SitemapUSA.gov    FDIC.gov    IGnet.gov
FDIC Office of Inspector General - 3501 Fairfax Drive, Arlington, VA, 22226
Last reviewed 11/21/2013